OIG Investigative Reports, Grand Jury in Wichita Returns Indictments
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
April 7, 2005
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Contact: Jim Cross
Tel: (316)269-6481
Fax: (316)269-6484
GRAND JURY IN WICHITA RETURNS INDICTMENTS
WICHITA, KAN.  United States Attorney Eric Melgren announced that a
total of 17 people were indicted April 6, 2005, by a federal grand jury in Wichita,
Kan. Those indicted include:
Matt Skillman, 30, Russelville, Ark., who is charged with one count
of embezzlement from student assistance programs and one count of mail fraud.
According to the indictment, Skillman prepared false time sheets under the
Federal Work Study Program that resulted in the payment of federal funds to
student athletes by Barton County Community College from Oct. 2, 2002, through
Oct. 1, 2003. He also is charged with sending an official transcript for student
Randy Pulley to the University of Missouri in Columbia, Mo., with the intent
to defraud the University of Missouri. The crime is alleged to have occurred
between May 19, 2003, and June 12, 2003.
If convicted, Skillman faces a maximum penalty of five years in federal prison
on the embezzlement count and a maximum penalty of 20 years in federal prison
on the mail fraud charge. The U.S. Department of Education investigated the
case.
Galen R. Beach, 49, Newton, Kan., and Vickie L. Beach, 49, Newton,
Kan., who are charged with bankruptcy fraud. Both are charged with two counts
of mail fraud , one count of bankruptcy fraud, and one count of misusing a Social
Security number.
According to the indictment, Galen and Vickie Beach, who are husband and wife,
filed Chapter 7 bankruptcy Sept. 17, 2001, in U.S. Bankruptcy Court in Wichita.
The indictment says that on July 10, 2003, they filed a statement with the Kansas
Secretary of State's office falsely claiming they had a summary judgment in
the amount of $500,000 against United States Trustee J. Michael E. Morris. In
March 2004 they filed a false claim against the Liberty Mutual Insurance Company
surety bond maintained by the United States Trustee for this region. They based
the claim on a fraudulently generated document stating that they had received
a $500,720 arbitration award and another in the amount of $1,550,536.67 from
the so-called "Western Arbitration Council." The indictment also says
that on Sept. 17, 2001, they filled out a bankruptcy petition using false Social
Security numbers. In addition, on Sept. 11, 2001, Galen and Vickie Beach filed
a bankruptcy petition containing false Social Security numbers.
If convicted, they face a maximum penalty of 20 years in federal prison without
parole and a $250,000 fine on each count of mail fraud; up to five years in
federal prison without parole and a $250,000 fine on the bankruptcy fraud count;
and up to 5 years without parole and a $250,000 fine on the counts of misusing
a Social Security number. The Federal Bureau of Investigation investigated the
case. Assistant U.S. Attorney Brent Anderson is prosecuting.
Martin Ojeda-Guerrero, 37, Wichita, Kan., who is charged with one count
of possession with intent to distribute fifty grams or more of methamphetamine.
The crime is alleged to have occurred March 28, 2005, in Sedgwick County, Kan.
If convicted, he faces a maximum penalty of not less than 10 years and not
more than life, and a $4 million fine. The Wichita Police Department investigated
the case. Assistant U.S. Attorney Blair Watson is prosecuting.
Luke A. Moran, 20, Hutchinson, Kan, who is charged with three counts
of illegally possessing a firearm after being convicted of a felony, and one
count of possession with intent to distribute two pounds of marijuana. The crimes
are alleged to have occurred Feb. 17, 2005, and March 1, 2005, in Reno County,
Kan.
If convicted, he faces a maximum penalty of 10 years in federal prison and
a $250,000 fine on each of the firearms charges and up to five years and a $250,000
fine on the drug charge. The U.S. Marshals Service investigated the case. Assistant
U.S. Attorney Lanny Welch is prosecuting.
Jorge Luis Olivares-Compos, 25, Secua, Guerrero, Mexico, who is charged
with possession with intent to distribute seven kilograms of methamphetamine.
The crime is alleged to have occurred April 3, 2005, in Shawnee County, Kan.
If convicted, he faces a maximum penalty of not less than 10 years in federal
prison and not more than life, as well as a fine up to $4 million. The Drug
Enforcement Administration investigated the case. Assistant U.S. Attorney Tony
Mattivi and Assistant U.S. Attorney Lanny Welch are prosecuting.
Ricky D. Smith, 45, Wichita, Kan., who is charged with four counts of
mail fraud, one count of using a false Social Security number and one count
of using another person's Social Security number.
According to the indictment, Smith faxed an application form to Kohl's Corporate
Gift Cards on Nov. 30, 2004, with intent to defraud Kohls. On July 30, 2003,
he mailed a credit account application form to Tires Plus in Clearwater, Kan.,
with intent to defraud Tires Plus. From Dec. 26, 2004, to Feb. 23, 2005, with
intent to defraud the Global Computer Company, he caused the Global Computer
Company to deliver merchandise via United Parcel Service. On July 20, 2003,
he filed a credit application with Tires Plus using a false Social Security
number. And on July 20, 2003, he filed a credit application with Tires Plus
using another person's Social Security number.
If convicted, he faces a maximum penalty of 20 years in federal prison and
a $250,000 fine on each of the mail fraud counts; a maximum penalty of five
years and a $250,000 fine on the count of using a false Social Security number;
and not less than two years on the count of using another person's Social Security
number. The case was investigated by the U.S. Secret Service. Assistant U.S.
Attorney Alan Metzger is prosecuting.
Garvin J. Novack, 43, LaCrosse, Kan., who is charged with one count
of making counterfeit money and one count of passing counterfeit currency.
According to the indictment, beginning Jan. 10, 2005, in Ellis County, Kan.,
Novack manufactured a counterfeit $20 bill. On the same date he passed a counterfeit
$20 bill at a McDonald's restaurant in Great Bend, Kan.
If convicted, he faces a maximum penalty of 20 years in federal prison and
a $250,000 fine. The U.S. Secret Service investigated the case. Assistant U.S.
Attorney Alan Metzger is prosecuting.
Kathryn L. Short, 46, Wichita, Kan., is charged with 15 counts of possessing
forged securities and 15 counts of mail fraud. In a separate count, the government
seeks the forfeiture of $140,778.30 she obtained from the crimes.
According to the indictment, Short was employed by Icemasters, a wholly owned
subsidiary of Tresko Inc. of Shawnee, Kan., which sells and services ice machines.
Her duties included billing and processing deposits. From Jan. 9, 2004, to Oct.
4, 2004, she made payable to herself and endorsed 15 checks that should have
been deposited in Icemasters' account. From Dec. 31, 2003, she sent deposit
tickets through the United States mails to Icemasters' account at the Gold Bank
in Kansas City, Mo., with the intent to defraud Icemasters.
If convicted, she faces a maximum penalty of 10 years in federal prison and
a $250,000 fine on each of the counts of possessing a forged security; and a
maximum penalty of 20 years in federal prison and a $250,000 fine on each count
of mail fraud. The Federal Bureau of Investigation investigated the case.
Robert J. Espinosa, 53, Catalina, Ariz., who is charged with one count
of possession with intent to distribute five kilograms or more of cocaine. The
crime is alleged to have occurred March 11, 2005, in Sedgwick County, Kan.
If convicted, he faces a maximum penalty of not less than 10 years in federal
prison and a fine up to $4 million. The Kansas Bureau of Investigation investigated
the case. Assistant U.S. Attorney Blair Watson is prosecuting.
Francisco Lopez-Cardenas, 26, who is a citizen of Mexico, and who is
charged with illegally transporting aliens within the United States after they
had entered the country in violation of law. He also is charged with illegally
reentering the United States after having been deported. The crimes are alleged
to have occurred March 15, 2005, in Sedgwick County, Kan.
If convicted, he faces a maximum penalty of 10 years in federal prison without
parole and a $250,000 fine on each count. The Bureau of Immigration and Customs
Enforcement investigated the case. Assistant U.S. Attorney Brent Anderson is
prosecuting.
Jose Alfredo Perez-Ocegueda, 27, who is a citizen of Mexico, and Mario
Arturo Perez-Ocegueda, 28, who is a citizen of Mexico, who are charged with
illegally transporting undocumented aliens. They also are charged with illegally
reentering the United States after having been deported. The crimes are alleged
to have occurred March 15, 2005, in Sedgwick County, Kan.
If convicted, they face a maximum penalty of five years in federal prison
without parole and a $250,000 fine on the count of illegally harboring aliens;
and 10 years in federal prison without parole and a $250,000 fine on the charge
of illegal reentry. The Bureau of Immigration and Customs Enforcement and the
Kansas Highway Patrol investigated the case. Assistant U.S. Attorney Brent Anderson
is prosecuting.
Wesley W. Webster, 27, Salina, Kan., who is charged with one count of
receiving and distributing by computer visual depictions of minors engaged in
sexual conduct. The crime is alleged to have occurred between March 2003 and
November 2004 in Salina, Kan.
If convicted on the child pornography charge, he faces a maximum penalty of
not less than five years in federal prison without parole and not more than
20 years, as well as a $250,000 fine. The Bureau of Immigration and Customs
Enforcement, aided by the Wichita Police Department, investigated the case.
Assistant U.S. Attorney Brent Anderson is prosecuting.
Francisco Guevara-Vielma, 64, who is a citizen of Mexico, and who is
charged with illegally reentering the United States after having been deported
following a conviction for an aggravated felony. The crime is alleged to have
occurred March 12, 2005, in Liberal, Kan.
If convicted he faces a maximum penalty of 20 years in federal prison without
parole and a $250,000 fine. The Bureau of Immigration and Customs Enforcement
investigated the case. Assistant U.S. Attorney Brent Anderson is prosecuting.
Renato Barraza-Jimenez, 31, who is a citizen of Mexico, and who is
charged with illegally reentering the United States after having been deported
following a conviction for an aggravated felony. Barraza was found March 21,
2005, in El Dorado, Kan.
If convicted, he faces a maximum penalty of 20 years in federal prison without
parole and a $250,000 fine. The Bureau of Immigration and Customs Enforcement
investigated the case. Assistant U.S. Attorney Brent Anderson is prosecuting.
Hector Ortiz-Esparaza, 30, who is a citizen of Mexico, and who is charged
with illegally reentering the United States after having been deported following
a conviction for an aggravated felony. Ortiz was found Nov. 2, 2004, in Garden
City, Kan.
If convicted, he faces a maximum penalty of 20 years in federal prison without
parole and a $250,000 fine. The Bureau of Immigration and Customs Enforcement
investigated the case. Assistant U.S. Attorney Brent Anderson is prosecuting.
As in any criminal case, a person is presumed not guilty until and unless
proven guilty. The Indictments filed merely contain allegations of criminal
conduct.
Top
Printable view
Share this page
Last Modified: 04/08/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov